Ar

■

20-7653
No.

eiim

IN THE
SUPREME COURT OF THE UNITED STATES

JEFFREY TODD DENTON
vs.
JOHN DAVIDS

FILED
MAR 1 7 2021
supreEm°Fcourt:LusK

ON PETITION FOR A WRIT OF CERTIORARI TO
UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT
PETITION FOR WRIT OF CERTIORARI

JEFFREY TODD DENTON #288247
IONIA MAXIMUM CORRECTIONAL FACILITY
1576 W. BLUEWATER HIGHWAY
IONIA, MICHIGAN 48846

(/-

f'S

QUESTIONS PRESENTED FOR REVIEW
Whether it can be presumed given the facts underlined in Schlup v Delo 513 US 298;
115 SC 851 (1995), Holland v Florida 560 US 631; 130 SC 2549 (2010), and McQuiggin v
Pekins 569 US 383; 133 SC 1924 (2013) all stating that if a petitioner presents evidence of
innocence so strong that a court cannot have confidence in the outcome of the trial that was
free of non-harmless constitutional error, should the petitioner be allowed to pass through the
gateway and argue the merits of his underlying claims in the lower state and federal courts?
Likewise, when innocence is so strong to lack confidence in the trial proceedings it shouldn’t
take decades for a prisoner to pass through the gateway to prove his or her innocence in the
lower courts!

1

, C,

*lT

TABLE OF CONTENT
QUESTIONS PRESENTED FOR REVIEW

1

LIST OF APPENDIXES ATTACHED

3

LIST OF PARTIES INVOLVED PURSUANT TO USSC RULE 12.6

3

TABLE OF AUTHORITIES

4

CITATION OF OPINION BELOW

7

JURISDICTION

7

U.S. CONSTITUTIONAL INVOLVEMENT

7

FEDERAL STATUTORY INVOLVED

8

MICHIGAN COURT RULE INVOLVED

9

STATEMENT OF FACTS

10

PROCEDURAL BACKGROUND

11

STANDARD OF REVIEW

13

MISCARRIAGE OF JUSTICE EXCEPTION

14

ACTUAL INNOCENCE ANALYSIS

19

BRADY ANALYSIS

20
GROUND ONE

THE PETITIONER ARGUES THAT HIS RIGHT TO A FAIR TRIAL WAS VIOLATED BY THE
PROSECUTION'S WITHHOLDING EVIDENCE FROM THE DEFENSE IN THE FORM OF A
MEDICAL REPORT FROM THE HURLEY MEDICAL CENTER AND THAT DUE PROCESS
ENTITLES THE PETITIONER TO A NEW TRIAL BASED ON NEWLY DISCOVERED
21
EVIDENCE.

21

STANDARD DF REVIEW
LEGAL SYNOPSIS........

22

2

•s
GROUND TWO
THE PETITIONER IS RELYING ON A CONSTITUTIONAL VIOLATION THAT HE WAS
DENIED DUE PROCESS OF LAW WHEN THE PROSECUTION WITHHELD CRITICAL
EVIDENCE ESTABLISHING A COLORFUL CLAIM OF ACTUAL INNOCENCE, AND IF
PROVEN, NO JUROR WOULD HAVE VOTED TO FIND HIM GUILTY BEYOND A
25
REASONABLE DOUBT
STANDARD OF REVIEW
LEGAL SYNOPSIS........

25
26

RELIEF SOUGHT

32

CERTIFICATION OF SERVICE

32

LIST OF APPENDIXES ATTACHED
A.

Hurley Medical Services Request Form

B.

PSI p-3 Discussing Hurley Medical

C.

Trial Transcripts

May 12, 1999

D.

Court Order and Opinion Denying 6.500 Motion

July 27, 2007

E.

Court Order Denying Production of Documents

Sept 26, 2007

F.

U.S.D.C. Order and Opinion #19-cv-11762

May 27, 2020

G.

U.S.C.A. Order #20-1566 Denying COA

Oct. 02, 2020

H.

U.S.C.A. Order Denying En Banc

Dec 07, 2020

LIST OF PARTIES INVOLVED PURSUANT TO USSC RULE 12.6
1. Jeffrey Todd Denton #288247 The Petitioner.
2. Michigan Attorney General Dana Nessel the Respondent for the State.
3. The Solicitor General the Respondent for The United States.

3

1 l

TABLE OF AUTHORITIES
SUPREME COURT CASES
Banks v Dretke 540 US 668; 124 SC 1256 (2004)
Bousley v United States 523 US 614; 118 SC 1604 (1998)
Brady v Maryland 373 US 83; 83 SC 1194 (1963)

20

19, 27
18,20,21

Calderon v Thompson 523 US 538; 118 SC 1489 (1998)

19, 27

Coleman v Thompson 501 US 722; 111 SC 2546 (1991)

19

Day v McDonough 547 US 198; 126 SC 1675 (2006)....

25

Giglio v United States 405 US 150; 92 SC 763 (1972)....

18

\

Herrera v Collins 506 US 390; 113 SC 853 (1993)
Holland v Florida 560 US 631; 130 SC 2549 (2010)

17, 18, 26
1, 14,15

House v Bell 547 US 518; 126 SC 2064 (2006)

16, 19, 27

Hysler v Florida 315 US 411; 62 SC 688 (1942)

18

Schlup v Delo 513 US 298; 115 SC 851 (1995)

1, 16

Keeney v Tamayo-Reyes 504 US 1; 112 SC 1715 (1992)

19

Kuhlmann v Wilson 477 US 436; 106 SC 2616 (1986)

19

Kyles v Whitley 514 US 419; 115 SC 1555 (1995)....

22

McCleskey v Zant 499 US 467; 111 SC 1454 (1991)

19

McQuiggin v Perkins 569 US 383; 133 SC 1924 (2013)

1, 14, 26,28

Mooney v Holohan 294 US 103; 55 SC 340 (1935)

18

Murray v Carrier 477 US 478; 106 SC 2639 (1986)

18

Pyle v Kansas 317 US 213; 63 SC 177 (1942)

18

Sawyer v Whitley 505 US 333; 112 SC 2514 (1992)

18

Schlup v Delo 513 US 298; 115 SC 851 (1995)
4

14, 25, 27

:

1

United States v Bagley 473 US 667; 105 SC 3375 (1985)

20

United States v Bagley 473 US 667; 105 SC 3375 (1985)

21

FEDERAL CASES
Armstead v Lindsey 2019 U.S. App Lexis 221

16

Burks v Egeler 512 F2d 221 (6th Cir 1975)........

18

Cannon v Alabama 558 F2d 1211 (5th Cir 1977)

23

Cook v Stegall 295 F3d 517 (6th Cir 2002)

26

In re McDonald 514 F3d 539 (6th Cir 2008)

21

Kyles v Whitley 514 US 419; 115 SC 1555 (1995)

21
26, 29

Lee v Lampert 653 F3d 929 (9th Cir 2011)
Perkins v McQuiggin, 670 F3d 665 (6th Cir Mich 2012)

25

15, 28

Rivas v Fischer 687 F3d 514 (2d Cir 2012)
Smith v Secretary Dept of Corrections 50 F3d 801 (10th Cir 1995)

22
25,28

Souter v Jones 395 F3d 577 (6th Cir 2005)
United States v Buchanan 891 F2d 1436 (10th Cir 1989)

22

United States v Dado 759 F3d 550 (6th Cir 2014)

20

Watkins v Miller 92 F. Supp. 2d (SD Ind 2000)

23

Weatherspoon v Burt 2017 U.S. App Lexis 26797.

16

Well v Harry 2017 U.S. App Lexis 27909

16

Wilson v Mitchell 498 F3d 491, 512 (6th Cir 2007)

20

STATES CASES
People v Denton 2016 Mich Lexis 1207 MSC #152116

12

People v Denton COA #326707

12

People v Denton COA #340066

12
5

I '-I

People v Denton 2001 Mich App Lexis 440 CO A #220812

10

People v Denton 2002 Mich Lexis 132 MSC #119939

10

People v Denton 2018 Mich Lexis 1789 MSC #157418

12

STATUTES
7

28 USC §1254(1)

10, 14, 15

28 USC §2244(d) (1) (D)
28 USCS § 2254

8

28 USCS § 2255

8

RULES

10

MCR 6.425(F) (3)

9, 24, 31

MCR 6.508
USSC R. 13.1

7

USSC Rule-29

32

REGULATIONS

13, 15

Effective Death Penalty Act of 1996 (AEDPA)

6

CITATION OF OPINION BELOW
District Judge Matthew F. Leitman ordered the Respondent to file a Brief and after it was
filed in the court the Petitioner filed an answer in opposition. District Judge Leitman dismissed
the Petitioner’s Habeas Petition on May 27, 2020 on the grounds that the petition was untimely
in case #4:19-cv-11762. The Petitioner filed an application for leave to appeal in the Sixth
Circuit Court of Appeals in case #20-1566 which was denied on October 02, 2020.

The

Petitioner then petitioned the court for a full Rehearing En Banc which was referred to the panel
on December 07, 2020 and was denied by the panel on December 22, 2020. See Appendix FI.
JURISDICTION
A petition for a Writ of Certiorari to reviewed a Judgment of a United States Court of
Appeals normally must be sought when filed with the Clerk of the USSC within 90-days after
entry of the judgment, however, due to the fact that 75% of Michigan’s prisons were infected
with COVIT-19 and under quarantine until recently, the Petitioner write a letter to the U.S.S.C.
clerk's office advising them of this situation and to extend the time requirement of USSC R.
13.1; 28 USC §1254(1); see also Hohn v United States 524 US 236; 118 SC 1969 (1998) until
the quarantine was lifted and allowed it to be filed pursuant to R. 13.1.

U.S. CONSTITUTIONAL INVOLVEMENT
USCS CONST. AMEND. 6
In all criminal prosecutions, the accused shall eniov the right to a speedy and
public trial, by an impartial jury of the State and district wherein the crime shall
have been committed, which district shall have been previously ascertained by
law, and to be informed of the nature and cause of the accusation; to be
confronted with the witnesses against him; to have compulsory process for
obtaining witnesses in his favor, and to have the Assistance of Counsel for his
defense.
7

uses CONST. AMEND. 14
All persons born or naturalized in the United States, and subject to the jurisdiction
thereof, are citizens of the United States and of the State wherein they reside. No
State shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any State deprive any person
of life, liberty, or property, without due process of law; nor deny to any person
within its jurisdiction the equal protection of the laws.

FEDERAL STATUTORY INVOLVED
28 USCS § 2244
(a) No circuit or district judge shall be required to entertain an application for a
writ of habeas corpus to inquire into the detention of a person pursuant to a
judgment of a court of the United States if it appears that the legality of such
detention has been determined by a judge or court of the United States on a prior
application for a writ of habeas corpus, except as provided in section [28 USCS
§ 2255],
(b) (1) A claim presented in a second or successive habeas corpus application
under section [28 USCS § 2254] that was presented in a prior application shall be
dismissed.
(2) A claim presented in a second or successive habeas corpus application under
section [28 USCS § 2254] that was not presented in a prior application shall be
dismissed unless:
(A) the applicant shows that the claim relies on a new rule of constitutional law,
made retroactive to cases on collateral review by the Supreme Court, that was
previously unavailable; or
(B) (i) the factual predicate for the claim could not have been discovered
previously through the exercise of due diligence; and
(ii) the facts underlying the claim, if proven and viewed in light of the evidence as
a whole, would be sufficient to establish by clear and convincing evidence that,
but for constitutional error, no reasonable factfinder would have found the
applicant guilty of the underlying offense.
28 USCS §2254
The Supreme Court, a Justice thereof, a circuit judge, or a district court shall
entertain an application for a writ of habeas corpus in behalf of a person in custody
pursuant to the judgment of a State court only on the ground that he is in custody
in violation of the Constitution or laws or treaties of the United States.
8

>. m

f

«

(c) An applicant shall not be deemed to have exhausted the remedies available
in the courts of the State, within the meaning of this section, if he has the right
under the law of the State to raise, by any available procedure, the question
presented.
(d) An application for a writ of habeas corpus on behalf of a person in custody
pursuant to the judgment of a State court shall not be granted with respect to any
claim that was adjudicated on the merits in State court proceedings unless the
adjudication of the claim:
(1) Resulted in a decision that was contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by the Supreme
Court of the United States; or
(2) Resulted in a decision that was based on an unreasonable determination of
the facts in light of the evidence presented in the State court proceeding.

MICHIGAN COURT RULE INVOLVED
MCR 6.508
(D) Entitlement to Relief, The defendant has the burden of establishing
entitlement to the relief requested. The court may not grant relief to the defendant
if the motion
(1) Seeks relief from a judgment of conviction and sentence that still is subject to
challenge on appeal pursuant to subchapter 7.200 or subchapter 7.300;
(2) Alleges grounds for relief which were decided against the defendant in
a prior appeal or proceeding under this subchapter, unless the defendant
establishes that a retroactive change in the law has undermined the prior
decision; for purposes of this provision, a court is not precluded from
considering previously-decided claims in the context of a new claim for
relief, such as in determining whether new evidence would make a different
result probable on retrial, or if the previously-decided claims, when
considered together with the new claim for relief, create a significant
possibility of actual innocence;
(3) Alleges grounds for relief, other than jurisdictional defects, which could have
been raised on appeal from the conviction and sentence or in a prior motion under
this subchapter, unless the defendant demonstrates
(a) Good cause for failure to raise such grounds on appeal or in the prior motion
and

9

t

%

(b) Actual prejudice from the alleged irregularities that support the claim for
relief. As used in this sub-rule, “actual prejudice” means that,
(i) In a conviction following a trial, but for the alleged error, the defendant
would have had a reasonably likely chance of acquittal.

STATEMENT OF FACTS
The Petitioner was convicted in Genesee County by a Jury Trial and a Judgment of
Sentence was entered on June 14, 1999. A claim of appeal was filed in the trial court pursuant
to the indigent defendant's request for the appointment of appellate counsel as authorized by
MCR 6.425(F) (3). The Court of Appeals affirmed the Petitioner’s Convictions and Sentences
on May 22, 2001. See People v Denton 2001 Mich App Lexis 440 COA #220812. Rehearing
was denied on July 05, 2001. The Michigan Supreme Court denied the Petitioner Leave to
Appeal on February 4, 2002. See People v Denton 2002 Mich Lexis 132 MSC #119939. The
Petitioner did not seek a Writ of Certiorari to the United States Supreme Court nor did he seek
relief by way of a Wirt of Habeas Corpus, rather, the Petitioner in the instant case is seeking
permission from the Sixth Circuit Court of Appeals asking the Court to allow him to file this Writ
of Habeas Corpus in the Federal District Court based on (a) a Brady violation and (b) a claim
that the evidence withheld will show by clear and convincing evidence that the Petitioner in this
case is actually innocent. The Federal Courts had jurisdiction to consider the Petitioner’s claims
under 28 USC §2244(d) (1) (D) if the courts were satisfied by proof that the Petitioner has
presented claim of actual innocence focused on a variety of manifest miscarriage of justice
entitling him to equitable tolling of AEDPA's limitations period. The lower Federal Courts were
at least satisfied that the Petitioner had presented enough evidence and facts to overcome 28
USC §2244(d) (1) (D) and reviewed his claims on the merits.
In the instant petition the Petitioner sought Habeas Relief on the following grounds:
10

THE PETITIONER ARGUES THAT HIS RIGHT TO A FAIR TRIAL WAS
I.
VIOLATED BY THE PROSECUTION'S WITHHOLDING EVIDENCE FROM THE
DEFENSE IN THE FORM OF A MEDICAL REPORT FROM THE HURLEY
MEDICAL CENTER AND THAT DUE PROCESS ENTITLES THE PETITIONER
TO A NEW TRIAL BASED ON NEWLY DISCOVERED EVIDENCE.
THE PETITIONER IS RELYING ON A CONSTITUTIONAL VIOLATION
II.
THAT HE WAS DENIED DUE PROCESS OF LAW WHEN THE PROSECUTION
WITHHELD CRITICAL EVIDENCE ESTABLISHING A COLORFUL CLAIM OF
ACTUAL INNOCENCE, AND IF PROVEN, NO JUROR WOULD HAVE VOTED
TO FIND HIM GUILTY BEYOND A REASONABLE DOUBT.
PROCEDURAL BACKGROUND
The Petitioner was arrested on January 09, 1999 because it was alleged that the
Petitioner sexually assaulted a child on three separate occasions, however, the police released
the Petitioner from custody, removed him from the child's residence, and the Petitioner had no
contact with the alleged victim since that date. On March 11, 1999, the Petitioner was re­
arrested. The Petitioner had a jury trial which found guilty of three counts of sexual assault.
The Petitioner was sentenced on June 14, 1999 and appealed as of right from his convictions
of three counts of first-degree criminal sexual conduct, for which he was sentenced as a habitual
offender second degree to concurrent terms of 40 to 60 years in prison.
In the instant case, prior to the Petitioner second arrest, the victim was taken to the
Hurley Medical Center Emergency Room where she was examined by a doctor to determine
whether the victim was actually sexual assault. The report provided by the Hurley Medical
Center clearly indicates that the doctor found no evidence that the victim was sexually assault
because her hymen and anal rings was still grossly intact at the time of her examination. See
LA-B PSI Description of Offense.
The Petitioner contends that this Medical Report was withheld by the prosecution and
would have establish by clear and convincing evidence that the victim was never sexually
assault and would have clearly changed the outcome of the Petitioner’s jury trial.
11

More

•. «!

f

*

importantly, the information contained in this medical report would have changed the
Petitioner’s defense theory and could have been used to impeached the victim testimony and
credibility. With this medical report, the state’s case would have been purely circumstantial in
the absence of any physical evidence connecting the Petitioner to these crimes.
As indicated herein the Petitioner did not seek a Writ of Certiorari to the United States
Supreme Court or relief by way of a Wirt of Habeas Corpus, instead, August 25, 2014 the
Petitioner filed in the Genesee County Circuit Court a Motion for Relief from Judgment which
was denied by the court on October 15, 2014. Thereafter the Petitioner sought relief in the
Michigan Court of Appeals which was denied in the People v Denton COA #326707 decided
on June 22, 2015, likewise, the Michigan Supreme Court denied him Leave to Appeal in the
People v Denton 2016 Mich Lexis 1207 MSC #152116. The Petitioner in the instant case, filed
a second Motion for relief from Judgment on June 29, 2017 asserting newly discovered
evidence which would make a different result probable on retrial which was denied on July 27,
2017. The Petitioner appealed by leave to the Michigan Court of Appeals in the People v
Denton COA #340066 decided on January 26, 2018 rising the same issues contained in this
petition, likewise, the Michigan Supreme Court denied him Leave to Appeal in the People v
Denton 2018 Mich Lexis 1789 MSC #157418.
In this case, the Petitioner asserts that the prosecutor had withheld a medical report from
Hurley Medical Center by Doctor Gomez relating to the primary examination of the victim on
January 09,1999 and that he was not aware of any medical reports from Hurley Medical Center
indicating that there were no signs that the victim had been repeatedly penetrated in her vagina
and anal. One month later for some unknown reason, the victim was later seen by Norman
Carter Director of the Child Evaluation Clinic at McLaren Regional Medical Center who
examined the victim. The prosecutor listed Doctor Carter as a witness who testified at the

/

12

r ♦

Petitioner Jury trial that his findings were consistent with repeated virginal and anal penetration.
Had the Petitioner known about the existence of the Hurley Medical Report defense counsel
would have called Doctor Gomez as a defense witness and while Circuit Judge Judith A.
Fullerton identified certain portions of the Petitioner’s Trial Transcripts (1) identifying the fact
that Sergeant Sutter received a copy of this report from the Hurley Medical Center in February
of 1999 and (2) identified Doctor Carter’s Trial testimony transcripts from May 12, 1999,
however, Judge Fullerton never identified that portion of the Petitioner’s Trial Transcripts that
this Hurley Medical Report was known to the defense and that there was testimony about the
results of this medical report at the Petitioner’s Jury Trial. See LA-D pgs 2-3. If that was true,
then Doctor Gomez would have testified about his preliminary examination and findings that he
found no evidence that the victim’s vagina and anal showed any signs of repeated sexual
penetration. For the reasons stated herein, the Petitioner asserts that the facts underlying these
claims presented in this petition, if proven and viewed in light of the evidence as a whole, would
be sufficient to establish by clear and convincing evidence that, but for constitutional error, no
reasonable factfinder would have found the Petitioner guilty of the underlying offense.
STANDARD OF REVIEW
The Antiterrorism and Effective Death Penalty Act of 1996 (AEDPA), which became
effective on April 24, 1996, imposes a one-year statute of limitations on the filing of habeas
corpus petitions:
(d) (1) A 1-year period of limitation shall apply to an application for a writ of habeas corpus by
a person in custody pursuant to the judgment of a State court. The limitation period shall run
from the latest of(A) the date on which the judgment became final by the conclusion of direct review or the
expiration of the time for seeking such review;
(B) the date on which the impediment to filing an application created by State action in violation
of the Constitution or laws of the United States is removed, if the applicant was prevented from
filing by such State action;

13

C. 4

(C) the date on which the constitutional right asserted was initially recognized by the Supreme
Court, if the right has been newly recognized by the Supreme Court and made retroactively
applicable to cases on collateral review; or
(D) the date on which the factual predicate of the claim or claims presented could have been
discovered through the exercise of due diligence.
(2) The time during which a properly filed application for State post-conviction or other collateral
review with respect to the pertinent judgment or claim is pending shall not be counted toward
any period of limitation under this subsection. 28 U.S.C. §2244(d) (1) (A).
But if the petition alleges newly discovered evidence, the filing deadline is one year from
the date on which the factual predicate of the claim could have been discovered through due
diligence. §2244(d) (1) (D).
AEDPA's statute of limitations is subject to equitable tolling in appropriate cases.
Holland v Florida 560 US 631, 649; 130 SC 2549 (2010). A court may review a time-barred
petition only if Petitioner shows (1) that he has been pursuing his rights diligently and (2) that
some extraordinary circumstance stood in his way that prevented the timely filing of the habeas
petition.
The Sixth Circuit has observed that the doctrine of equitable tolling is used sparingly by
federal courts. See Robertson v Simpson 624 F3d 781, 784 (6th Cir2010). The burden is on
a habeas petitioner to show that he is entitled to the equitable tolling of the one year limitations
period.
MISCARRIAGE OF JUSTICE EXCEPTION
A petitioner may overcome the AEDPA time bar with a showing of a miscarriage of
justice. To satisfy this exception, a petitioner "must show that it is more likely than not that no
reasonable juror would have convicted him in the light of the new evidence. Schlup v Delo 513
US 298, 327; 115 SC 851 (1995). In this case, Petitioner provides no new evidence that would
justify tolling the limitations period under the miscarriage of justice exception.

14

f- %

For example, in McQuiggin v Perkins 569 US 383; 133 SC 1924 (2013) the United States
Supreme Court stated that the Antiterrorism and Effective Death Penalty Act of 1996's, time
limitations apply to the typical case in which no allegation of actual innocence is made. The
miscarriage of justice exception applies to a severely confined category: cases in which new
evidence shows that it is more likely than not that no reasonable juror would have convicted
the petitioner. 28 USC §2244(d) (1) (D) is both modestly more stringent (because it requires
diligence) and dramatically less stringent (because it requires no showing of innocence). Many
petitions that could not pass through the actual innocence gateway will be timely or not
measured by §2244(d) (1) (D)'s triggering provision. That provision, in short, will hardly be
rendered superfluous by recognition of the miscarriage of justice exception. The United States
Supreme Court also stated in Holland v Florida 560 US 631; 130 SC 2549 (2010) that equitable
principles have traditionally governed the substantive law of habeas corpus.

The Court's

opinion reminded and affirmed, that the Supreme Court will not construe a statute to displace
courts' traditional equitable authority absent the clearest command, and found that the text of
28 USC §2244(d) (1) contains no clear command countering the courts equitable authority to
invoke the miscarriage of justice exception to overcome expiration of the statute of limitations
governing a first federal habeas petition. As the Court observed in Holland, the Antiterrorism
and Effective Death Penalty Act of 1996 (AEDPA), 110 Stat. 1214, seeks to eliminate delays in
the federal habeas review process.
The Petitioner in this case like that in Perkins, asserts not an excuse for filing after the
statute of limitations has run. Instead, like Perkins, he maintains that a plea of actual innocence
can overcome AEDPA’s one-year statute of limitations. He thus seeks an equitable exception ,
to §2244(d) (1), not an extension of the time statutorily prescribed. See Rivas v Fischer 687
F3d 514, 547, n 42 (2012) (distinguishing from equitable tolling a plea to override the statute of
15

*

limitations when actual innocence is shown). Thus, the Sixth Circuit has stated in several cases
that Perkins’ standard of passing through the actual innocence gateway which allows a
petitioner to pursue an untimely claim is difficult to meet and applies only in cases in which new
evidence shows it is more likely than not that no reasonable jurors would have convicted the
Petitioner. Therefore, a petitioner claiming his actual innocence must support his allegations
of constitutional error with new, reliable evidence, such as exculpatory scientific evidence,
trustworthy eyewitness account, or critical evidence physical evidence that was not presented
at trial. See Armstead v Lindsey 2019 U.S. AppLexis221 and Weatherspoon v Burt 2017 U.S.
App Lexis 26797. A petitioner does not meet the threshold requirement of Perkins unless he
i

persuades the district court that in light of the new evidence, no juror, acting reasonably, would
have voted to find him guilty. See Well v Harry 2017 U.S. App Lexis 27909.
More than 11 years after his conviction became final, Perkins filed his federal habeas
petition, alleging, inter alia, ineffective assistance of trial counsel. To overcome AEDPA's time
limitations, he asserted newly discovered evidence of actual innocence, relying on three
affidavits, the most recent dated July 16, 2002, each pointing to Jones as the murderer. The
District Court found that, even if the affidavits could be characterized as evidence newly
discovered, Perkins had failed to show diligence entitling him to equitable tolling of AEDPA's
limitations period. Alternatively, the court found, Perkins had not shown that, taking account of
all the evidence, no reasonable juror would have convicted him. The Sixth Circuit reversed.
Acknowledging that Perkins' petition was untimely and that he had not diligently pursued his
rights, the court held that Perkins' actual innocence claim allowed him to present his ineffective
assistance of counsel claim as if it had been filed on time. In so ruling, the court apparently
considered Perkins' delay irrelevant to appraisal of his actual innocence claim.

16

■*

m

Nevertheless, actual innocence, if proved, serves as a gateway through which a
petitioner may pass whether the impediment is a procedural bar, as it was in Schlup v Delo 513
US 298; 115 SC 851 (1995) and House v Bell 547 US 518; 126 SC 2064 (2006) or expiration
of the AEDPA statute of limitations, as in this case.
In the Instant case, the petitioner asserts that he can overcome AEDPA’S time limitation
on the basis of newly discovered evidence and a Brady violation. The Petitioner has submitted
(a) a copy of one page from his trial transcripts in which the victim testified that she had only
went to one Hospital and was examined by one doctor and (b) a copy from his PSI report stating
that on January 09, 1999, the day the Petitioner was first arrested, the victim was examined by
a Doctor at the Hurley Medical Center and who found no evidence that the victim had been
sexually assaulted which concerns the government’s witness primary and state’s lack of
evidence on January 09, 1999. The Genesee County Circuit issued an order and opinion which
goes on to explain that the victim was examine one month later at the McLaren Regional
Medical Center and the Doctor examining the victim discovered that the victim’s hymen and
anal rings revealed repeated penetrations. See LA-D at pgs 2-3. At trial the victim testified that
she had only went to one Hospital and was examined by one doctor. See LA-C TT p-60. More
importantly, between January and February of 1999 the Petitioner was removed from the
resident where he was living with the victim and her Mother. If anything, these documents clear
establish, if the victim had been sexually assaulted, it occurred after the Petitioner was arrested
on January 09; 1999 and after the victim was examined on January 09,1999 by a Hurley
Medical Center Doctor.
In the instant case, like the Sixth Circuit found in Holland, the Petitioner must make a
prima facie showing that no reasonable factfinder would have found him guilty if this newly
discovered evidence was proven and viewed in light of all the evidence presented at his trial.

17

See 28 USC §2244(b) (2) (B) (ii). From the information provided in this brief, along with the
medical report to this court, it does not appear that any physical evidence ties the Petitioner to
the crime, or in the alternative, the confliction evidence from this medical report would have
generated a different result that no reasonable factfinder would have found him guilty, to which
the Petitioner asserts, deserts a fuller exploration in the federal district court. See McDonald
514 F3d at 544.
The Petitioner must also identify some constitutional error affecting his convictions. See
28 USC §2244(b) (2) (B) (ii); Herrera v Collins 506 U.S. 390, 400; 113 SC 853 (1993) (Stating
claims of actual innocence based upon newly discovered evidence have never been held to
state a ground for federal habeas relief absent an independent constitutional violation occurring
in the underlying state criminal proceedings). The mere recantation of testimony is not in itself
grounds for invoking the Due Process Clause. Consider Hysler v Florida 315 US 411, 413; 62
SC 688 (1942). For a conviction based on false testimony to offend due process, there must
be the presence of impermissible state involvement in the untruthful testimony. Consider Burks
v Egeler 512 F2d 221, 225 (6th Cir 1975)] see also Pyle v Kansas 317 US 213, 215-16; 63 SC
177 (1942). The Petitioner claim that the prosecution intentionally withheld this medical report
and presented conflicting testimony from another medical report, if proven, would indicate a
deliberate deception of a court and jurors by the presentation of known false evidence is
incompatible with rudimentary demands of justice. Quoting Giglio v United States 405 US 150,
153; 92 SC 763 (1972) (citing Mooney v Holohan 294 US 103, 112; 55 SC 340 (1935)] as
determined by Brady v Maryland 373 US 83; 83 SC 1194 (1963) would satisfy the requirements
of 28 USC §2244(b) (2) (B) (ii).

18

ACTUAL INNOCENCE ANALYSIS
A plea of actual innocence can overcome many federal limitations regarding the
significance of a convincing actual-innocence claim. The United States Supreme Court stated
that we have not resolved whether a prisoner may be entitled to habeas relief based on a
freestanding claim of actual innocence. Herrera v Collins 506 US 390, 404-405; 113 SC 853
(1993). The Supreme Court stated however, that we have recognized that a prisoner otherwise
subject to defenses of abusive or successive use of the writ of habeas corpus may have his
federal constitutional claim considered on the merits if he makes a proper showing of actual
innocence. Id. at 404, 113 SC 853 (citing Sawyer v Whitley 505 US 333; 112 SC 2514 (1992)
see also Murray v Carrier 477 US 478, 496; 106 SC 2639 (1986) (we think that in an
extraordinary case, where a constitutional violation has probably resulted in the conviction of
one who is actually innocent, a federal habeas court may grant the writ even in the absence of
a showing of cause for the procedural default). In other words, a credible showing of actual
innocence may allow a prisoner to pursue his constitutional claims on the merits
notwithstanding the existence of a procedural bar to relief. This rule or fundamental miscarriage
of justice exception is grounded in the equitable discretion of habeas courts to see that federal
constitutional errors do not result in the incarceration of innocent persons. Herrera 506 US at
404. The United States Supreme Court has applied the miscarriage of justice exception to
overcome various defaults, these include, successive petitions asserting previously rejected
claims, see Kuhlmann v Wilson 477 US 436, 454; 106 SC 2616 (1986)] abusive petitions
asserting in a second petition claims that could have been raised in a first petition, see
McCleskey v Zant 499 US 467, 494-495; 111 SC 1454 (1991)] failure to develop facts in state
court, see Keeney v Tamayo-Reyes 504 US 1, 11-12; 112 SC 1715 (1992)] and failure to
observe state procedural rules including filing deadlines, see Coleman v Thompson 501 US
19

722, 750; 111 SC 2546 (1991)] Carrier 477 US at 495-496.

The miscarriage of justice

exception, the Supreme Court stated will survived AEDPA’s passage. In Calderon v Thompson
523 US 538; 118 SC 1489 (1998) applied the exception to hold that a federal court may
consistent with AEDPA recall its mandate in order to revisit the merits of a decision. Id. at 523
US 558 (The miscarriage of justice standard is altogether consistent with AEDPA’s central
concern that the merits of concluded criminal proceedings not be revisited in the absence of a
strong showing of actual innocence). In Bousley v United States 523 US 614, 622; 118 SC
1604 (1998) the court stated that an actual innocence claim may even overcome a prisoner’s
failure to raise a constitutional objection on direct review. In House v Bell 547 US 518; 126 SC
2064 (2006) the court reiterated that a prisoner’s proof of actual innocence may provide a
gateway for federal habeas review of a procedurally defaulted claim of constitutional error. Id.
547 US at 537-538.
BRADY ANALYSIS
In Brady v Maryland 373 US 83; 83 SC 1194 (1963) the Supreme Court held that the
suppression by the prosecution of evidence favorable to an accused upon request violates due
process where the evidence is material either to guilt or to punishment, irrespective of the good
faith or bad faith of the prosecution. See Wilson v Mitchell 498 F3d 491, 512 (6th Cir 2007)
(quoting Brady ibid 373 US at 87).

The material which must be disclosed under Brady

encompasses impeachment evidence as well as exculpatory evidence. Wilson ibid 498 F3d at
512 (citing United States v Bagley 473 US 667, 676; 105 SC 3375 (1985)). To establish a
Brady violation, the Petitioner must establish: (1) the prosecution suppressed or withheld
evidence (2) such evidence was favorable to the defense and (3) the suppressed evidence was
material. See United States v Dado 759 F3d 550, 559-60 (6th Cir 2014).

20

The materiality requirement is not a sufficiency of the evidence test. See In re McDonald
514 F3d 539, 545-46 (6th Cir2008) (quoting Kyles v Whitley 514 US 419, 434-35; 115 SC 1555
(1995)). In other words, a Petitioner is not required to demonstrate that consideration of the
undisclosed evidence results in less than sufficient evidence to support his conviction. This is
because the possibility of an acquittal of a criminal charge does not imply an insufficient
evidentiary basis to convict. See In re McDonald 514 F3d at 546 (quoting Whitley 514 U.S. at
434-35). Also, the withheld evidence must be considered collectively, not item by item. Whitley
supra 514 US at 436-37. The materiality requirement is satisfied where the favorable evidence
could reasonably be taken to put the whole case in such a different light as to undermine
confidence in the verdict. Banks y Dretke 540 US 668, 698; 124 SC 1256 (2004) (quoting
Whitley supra 514 U.S. at 435). In short, a Petitioner must demonstrate a reasonable probability
of a different result. See Dretke supra 540 US at 698 (quoting Whitley supra 514 US at 434).
For the reasons stated herein this Court should consider the fact that the below claims, if
proven, would have generated a different result that no reasonable factfinder would have found
the Petitioner guilty, to which the Petitioner asserts, deserts a fuller examination in the federal
district court on the merits of these allegations.
GROUNDS FOR GRANTING RELIEF
GROUND ONE
THE PETITIONER ARGUES THAT HIS RIGHT TO A FAIR TRIAL WAS
VIOLATED BY THE PROSECUTION'S WITHHOLDING EVIDENCE FROM THE
DEFENSE IN THE FORM OF A MEDICAL REPORT FROM THE HURLEY
MEDICAL CENTER AND THAT DUE PROCESS ENTITLES THE PETITIONER
TO A NEW TRIAL BASED ON NEWLY DISCOVERED EVIDENCE.
STANDARD DF REVIEW
A prosecutor has a duty to provide an accused with all evidence in the state’s possession
materially favorable to the accused's defense. Brady v Maryland 373 US 83; 83 SC 1194 (1963)

21

and should also be reviewed de novo. See also Smith v Secretary Dept of Corrections 50 F3d
801 (10th Cir 1995).
LEGAL SYNOPSIS
In Brady v Maryland 373 US 83; 83 SC 1194 (1963) the Supreme Court held that the
government in a criminal prosecution must turn over to the defense potentially exculpatory
evidence. Accord also United States v Bagley 473 US 667; 105 SC 3375 (1985) (stating Brady
applies to impeachment evidence even in the absence of request for the evidence by the
accused). With this being said a Brady claim has three essential elements: First, the evidence
in question must be favorable to the accused either because it is exculpatory or because it
tends to impeach the credibility of a prosecution witness. Second, the evidence must have
been suppressed by the prosecution either willfully or inadvertently. In a Brady analysis, a
defendant need not show that the prosecutor intentionally suppressed the information. A Brady
violation depends on the character of the evidence and not the character of the prosecutor,
however, the prosecution for purposes of such evidence encompasses not only the
prosecutor’s handling the case but also extends to the prosecutor’s entire office as well as law
enforcement personnel and other arms of the state involved in any aspects of a particular
criminal case, which logically must be assumed, that investigating officers are part of the
prosecution in proving guilt or innocence. See United States v Buchanan 891 F2d 1436 (10th
Cir 1989).

Third, prejudice must have resulted, which means a defendant must show a

reasonable probability that had the evidence been disclosed to the defendant the result of the
trial proceedings would have been different. See Bagiev ibid 473 US at 682. The then question
turns to prejudice, meaning whether the favorable evidence could reasonably be taken to put
the whole case in such a different light as to undermine confidence in the verdict. See Kyles v
Whitley 514 US 419; 115 SC 1555 (1995).

22

In the instant case, the Petitioner was arrested on two occasions (a) on January 09,1999
and (b) was re-arrested again on March 23, 1999. The victim in this case was taken to the
Hurley Medical Center Emergency Room on January 09, 1999 where she was examined for a
possible sexual assault by Doctor Gomez who filed a state required medical report stating that
he found no sighs of vaginal or rectal disruption. See LA-B. The victim in this case was examine
one month later by Doctor Norman Carter Director of the Child Evaluation Clinic at McLaren
Regional Medical Center who examined the victim and prepared a state required medical report
demonstrating that the victim’s hymen and anal rings revealed repeated sexual penetrations.
See LA-D pgs 2-3.
The Petitioner contends that the previous medical report prepared by Doctor Gomez was
withheld by the prosecutor had the potential of changing the outcome of the Petitioner’s Jury
Trial, specifically, the information would have shed a different light on the state’s presentation
of evidence and would have changed the Petitioner's theory of his defense by showing the jury
that this Medical Report demonstrates that the victim was not sexually assaulted on January
09, 1999 and other documents, such as the police reports, would demonstrate that the
Petitioner had no contact with the victim until May 12, 1999 when Petitioner trial proceedings
began. Likewise, the information could have been used to impeach the victim, as Well as, her
credibility. Here, with the February 09, 1999 medical report, the State’s case would have purely
circumstantial and without any physical evidence such like DNA evidence, and with no
evidence, the juror more than likely would not have found the Petitioner guilty of these charges.
See Watkins v Miller 92 F. Supp. 2d (SD Ind 2000)] Cannon v Alabama 558 F2d 1211, 121516, n-10 (5th Cir 1977) (reversing denial of relief where prosecutor failed to disclose existence
eyewitness who would positively identify killer as someone other than the accused); see also
Brady supra; and Bell v Bell 470 F3d 739 (6th Cir 2006).
23

In the instant case, the Petitioner has demonstrated by clear and convincing evidence
that on January 09, 1999 the victim’s Mother was advised by Flint Police Sergeant Scott Sutter,
the officer in charge of this case, to take her daughter to the Hurley Medical Center to get any
evidence that her daughter was sexually assaulted. See LA-D p2. Where she was examined
for a possible sexual assault by Doctor Gomez who filed a state required medical report stating
that he found no sighs of vaginal or rectal disruption. See LA-B. Why the victim was re-examine
one month later by Doctor Norman Carter remains a mystery for the state to prove by clear and
convincing evidence on why this doctor’s report demonstrates that the victim’s hymen and anal
rings revealed repeated penetrations, if this was true, then Doctor Gomez medical report would
have been a reflection of the Doctor Carter’s medical report or why the victim testimony exposes
the fact that the victim only went to one hospital and was only seen by one doctor and the
prosecution never asked the victim to identify which hospital and doctor they were. See LA-C
TT p-60 L-13 (So you went to one doctor and one hospital) emphasis Added.
Even in a light most favorable to the prosecution Doctor Gomez medical report was
favorable to the Petitioner’s defense on the charges of his imprisonment, was suppressed or
withheld by the prosecution, and was absolutely raised in the state court on collateral review in
Michigan’s Motion for Relief from Judgment pursuant to MCR 6.508 pleading to the state courts
that this evidence was favorable or material to the Petitioner. While that state court did not
expressly address why the victim was (a) examine on two different occasions or (b) why there
was obviously two different medical opinions, the fact remains the state courts obviously denied
Petitioner's request for relief. For the reasons state herein Petitioner asserts that this type of
determination was based on an unreasonable determination of the facts in light of the evidence
presented in the state courts that the prosecution suppressed or withheld favorable evidence

24

during the Petitioner jury trial. Accordingly, this claim raises an issue upon which habeas relief
may be granted by this court.

GROUND TWO
THE PETITIONER IS RELYING ON A CONSTITUTIONAL VIOLATION THAT HE
WAS DENIED DUE PROCESS OF LAW WHEN THE PROSECUTION
WITHHELD CRITICAL EVIDENCE ESTABLISHING A COLORFUL CLAIM OF
ACTUAL INNOCENCE, AND IF PROVEN, NO JUROR WOULD HAVE VOTED
TO FIND HIM GUILTY BEYOND A REASONABLE DOUBT.
STANDARD OF REVIEW
There is one factor in this case, this court should Court should take into consideration,
that the petitioner has never file a habeas petition following the denial by the state’s highest
court not did he seek a writ of certiorari to the United States Supreme Court where two
standards may be applied in this case.
Firstly, AEDPA's statutes of limitation prescribe when state prisoners may apply for writs
of habeas corpus in federal court, however, the statutes of limitation are not jurisdictional, and
do not require courts to dismiss claims as soon as the clock has run. See Perkins v McQuiggin,
670 F3d 665 (6th Cir Mich 2012) (quoting Dayv McDonough 547 US 198, 208; 126 SC 1675
(2006)). Likewise, in Souter v Jones 395 F3d 577, 602 (6th Cir 2005) the Sixth Circuit Court of
Appeals held that where an otherwise time-barred habeas petitioner can demonstrate that it is
more likely than not that no reasonable juror would have found him guilty beyond a reasonable
doubt the petitioner should be allowed to pass through the gateway and argue the merits of his
underlying constitutional claims. This gateway actual innocence claim the court held does not
require the granting of the writ but instead permits the petitioner to present his original habeas
petition as if he had not filed it late. Id. at 596. A district court's dismissal of a petition for a writ
of habeas corpus for failing to comply with 28 USC §2244's statute of limitations is reviewed de
25

novo. See Cook v Stegall 295 F3d 517, 519 (6th Cir 2002). Secondly, as the Sixth Circuit
recognized in Souter an exception to timeliness should be made in the rare and extraordinary
case where a petitioner can demonstrate a credible claim of actual innocence.

Indeed, a

credible claim of actual innocence functions as a wholly separate and superseding
circumstance that acts as an equitable exception to the statute of limitations. See e.g. Lee v
Lampert 653 F3d 929, 933 at n.5 (9th Cir 2011).
However, federal habeas jurisprudence also demonstrates that such claims are rare,
constituting a narrow class of cases implicating a fundamental miscarriage of justice. As
determined in Schlup vDelo 513 US 298, 314-315; 115 SC 851 (1995). In Schulp the Supreme
Court held that in order to credibly claim actual innocence a petitioner must show that it is more
likely than not that no reasonable juror would have convicted him in the light of the new
evidence. Id. at 327. Moreover, any such new evidence presented must be reliable, whether it
consists of exculpatory scientific evidence, trustworthy eyewitness accounts, or critical physical
evidence that was not presented at trial. Id. at 324. Thus a petitioner must present more than
an existential possibility of innocence that rests on speculation or present arguments that simply
revisit minor discrepancies in trial testimony or evidence. A petitioner who can present new
and reliable evidence of actual innocence under these exacting standards should be entitled to
a review of his claims of constitutional error without the untimeliness of his petition standing in
the way is reviewed de novo.
LEGAL SYNOPSIS
Judicial precedent holds that to establish actual innocence, a habeas petitioner must
demonstrate that, in light of all the evidence, it is more likely than not that no reasonable juror
would have convicted him and that actual innocence means factual innocence, not mere legal
insufficiency. One way to establish factual innocence is to show an intervening change in the
26

law that establishes the petitioner's actual innocence. This may be achieved by demonstrating
(1) the existence of a new interpretation of statutory law (2) which was issued after the petitioner
had a meaningful time to incorporate the new interpretation into his direct appeals or
subsequent motions (3) is retroactive and (4) applies to the merits of the petition to make it
more likely than not that no reasonable juror would have convicted him.
In McQuiggin v Perkins 569 US 383; 133 SC 1924 (2013) the Supreme Court discussed
the actual innocence exception in the context of state petitioner's untimely filing under 28 USC
§2244 describing the actual innocence exception as a fundamental miscarriage of justice
exception grounded in the equitable discretion of habeas courts to see that federal
constitutional errors do not result in the incarceration of innocent persons. McQuippin ibid 133
SC at 1931 (quoting Herrera v Collins 506 US 390, 404; 113 SC 853 (1993)). Although the
Court in McQuippin addressed an evidentiary factual actual innocence claim, i.e. the petitioner
claimed that newly discovered facts established his innocence, the Court drew upon its
reasoning in several decisions including Bousley v United States 523 US 614; 118 SC 1604
(1998) which recognized a fundamental miscarriage of justice exception in the procedural
default context.
The miscarriage of justice exception, the Supreme Court stated that our decisions bear
out, survived AEDPA's passage. In Calderon v Thompson 523 US 538; 118 SC 1489 (1998)
the Court applied the exception to hold that a federal court may consistent with AEDPA, recall
its mandate in order to revisit the merits of a decision.

Id. at 523 US at 558 stating (The

miscarriage of justice standard is altogether consistent with AEDPA's central concern that the
merits of concluded criminal proceedings not be revisited in the absence of a strong showing
of actual innocence). In Bousley v United States 523 US 614, 622; 118 SC 1604 (1998) the
Court held, in the context of §2255 an actual innocence claim may overcome a prisoner's failure
27

to raise a constitutional objection on direct review. In House v Bell 547 US 518; 126 SC 2064
(2006) the Court reiterated that a prisoner's proof of actual innocence may provide a gateway
for federal habeas review of a procedurally defaulted claim of constitutional error. Id. 547 US
at 537-538.
These decisions by the Supreme Court sought to balance the societal interests in finality,
comity, and conservation of scarce judicial resources with the individual interest in justice that
arises in the extraordinary case of Actual Innocence. See Schlup v Delo 513 US 298, 324; 115
SC 851 (1995). Sensitivity to the injustice of incarcerating an innocent individual should not
decrease by the impediment of AEDPA's statute of limitations.
The Petitioner in the instant case, however, asserts not an excuse for filing after the
statute of limitations has run.

Instead, he maintains that a plea of actual innocence can

overcome AEDPA's one-year statute of limitations. He thus seeks an equitable exception to
§2244(d) (1) and not an extension of the time statutorily prescribed in this rule.
In McQuiggin v Perkins 569 US 383; 133 SC 1924, 1931 (2013) (citing Rivas v Fischer
687 F3d 514, 547 n.42 (2d Cir 2012) (the second circuit noted that some courts have framed
the actual innocence question as whether the AEDPA allows for equitable tolling but finding it
more accurate to describe the issue as whether an equitable exception exists because the due
diligence requirement for equitable tolling is incompatible with a workable actual innocence
exception).
For example, the Bouslev the Supreme Court properly informs the analysis of an actual
innocence claim in the statute of limitations context. See also Souter v Jones 395 F3d 577,
590, 590 n.5 (6th Cir 2005) (finding a credible claim of actual innocence based upon newly
discovered evidence sufficient to equitably toll the one-year statute limitations set forth in
§2244(d) (1), noting the teachings of Bouslev. and observing that the interests that must be
28

.f

*

Ij*

%

balanced in creating an exception to the statute of limitations are identical to those implicated
in the procedural default context).

Thus, Bouslev established an analytical framework for

addressing actual innocence claims based upon a claim of legal innocence.
The Bouslev Court held that to establish actual innocence the petitioner must
demonstrate that, in light of all the evidence, it is more likely than not that no reasonable juror
would have convicted him and that actual innocence means factual innocence not mere legal
insufficiency.
As the Sixth Circuit Court of Appeals recognized in Souter v Jones 395 F3d 577, 600
(6th Cir 2005) an exception to timeliness should be made in the rare and extraordinary case
where a petitioner can demonstrate a credible claim of actual innocence. Indeed, a credible
claim of actual innocence functions as a wholly separate and superseding circumstance that
acts as an equitable exception to the statute of limitations. See Lee v Lampert 653 F3d 929,
933 at n:5 (9th Cir 2011).
The Petitioner in the instant case, reiterates again, that the Supreme Court in Schulp
held that in order to credibly claim actual innocence a petitioner must show that it is more likely
than not that no reasonable juror would have convicted him in the light of the new evidence.
That any such new evidence presented must be reliable, whether it consists of exculpatory
scientific evidence, trustworthy eyewitness accounts, or critical physical evidence that was not
presented at trial. Id. at 324. Thus a petitioner must present more than an existential possibility
of innocence that rests on speculation or present arguments that simply revisit minor
discrepancies in trial testimony or evidence. A petitioner claiming Actual Innocence, who can
present new and reliable evidence of actual innocence under these standards should be entitled
to a review of his claims of constitutional error without the untimeliness of his petition standing
in the way.

29

<

« 1 ' * •

In the case before this Court as was discussed in Ground-One, the Petitioner was
arrested on two occasions (a) on January 09,1999 and (b) was re-arrested again on March 23,
1999. The victim in this case was taken to the Hurley Medical Center Emergency Room on
January 09, 1999 where she was examined for a possible sexual assault by Doctor Gomez
who filed a state required medical report stating that he found no sighs of vaginal or rectal
disruption. See LA-B. The victim in this case was examine one month later by Doctor Norman
Carter Director of the Child Evaluation Clinic at McLaren Regional Medical Center who
examined the victim and prepared a state required medical report demonstrating that the
victim’s hymen and anal rings revealed repeated sexual penetrations. See LA-D pgs 2-3.
The Petitioner contends that the previous medical report prepared by Doctor Gomez was
withheld by the prosecutor had the potential of changing the outcome of the Petitioner’s Jury
Trial, specifically, the information would have shed a different light on the state’s presentation
of evidence and would have changed the Petitioner’s theory of his defense by showing the jury
that this Medical Report demonstrates that the victim was not sexually assaulted on January
09, 1999 and other documents, such as the police reports, would demonstrate that the
Petitioner had no contact with the victim until May 12, 1999 when Petitioner trial proceedings
began. Likewise, the information could have been used to impeach the victim, as Well as, her
credibility. Here, with the February 09,1999 medical report, the State’s case would have purely
circumstantial and without any physical evidence such like DNA evidence, and with no
evidence, the juror more than likely would not have found the Petitioner guilty of these charges.
In the instant case, the Petitioner avers that he has demonstrated by clear and
convincing evidence that on January 09, 1999 the victim’s Mother was advised by Flint Police
Sergeant Scott Sutter, the officer in charge of this case, to take her daughter to the Hurley
Medical Center to get any evidence that her daughter was sexually assaulted. See LA-D p2.
30

r'

4 1 r*

.V.

Where she was examined for a possible sexual assault by Doctor Gomez who filed a state
required medical report stating that he found no sighs of vaginal or rectal disruption. See LAB. Why the victim was re-examine one month later by Doctor Norman Carter remains a mystery
for the state to prove by clear and convincing evidence on why this doctor’s report demonstrates
that the victim’s hymen and anal rings revealed repeated sexual penetrations, if this was true,
then Doctor Gomez medical report would have been a reflection of the Doctor Carter’s medical
report and the state ignores the that the victim testimony exposes an important element that
she only went to one hospital and was only seen by one doctor and the prosecution never
asked the victim to identify which hospital and doctor they were. See LA-C TT p-60 L-13 (So
you went to one doctor and one hospital) emphasis Added.
Even in a light most favorable to the prosecution Doctor Gomez medical report was
favorable to the Petitioner’s defense on the charges of his imprisonment, was suppressed or
withheld by the prosecution, and was absolutely raised in the state court on collateral review in
Michigan’s Motion for Relief from Judgment pursuant to MCR 6.508 pleading to the state courts
that this evidence was favorable or material to the Petitioner. While that state court did not
expressly address why the victim was (a) examine on two different occasions or (b) why there
was obviously two different medical opinions, the fact remains, the state courts obviously
denied Petitioner's request for relief. For the reasons state herein Petitioner asserts that this
type of determination was based on an unreasonable determination of the facts in light of the
evidence presented in the state courts that the prosecution suppressed or withheld favorable
evidence during the Petitioner jury trial regarding his guilt or innocence.
The Petitioner strongly avers that he has established by clearly and convincing evidence
a colorful claim of Actual Innocence which demonstrates, in light of all the evidence, it is more
likely than not that no reasonable juror would have convicted him and that this claim means

31

k1 "s >

factual innocence not mere legal insufficiency in his trial proceedings. Accordingly, this claim
raises an issue upon which habeas relief may be granted by this court.
RELIEF SOUGHT
For the reasons stated herein the Petitioner implores this court to grant his petition for a writ of
certiorari and either reverse the Sixth Circuit’s decision or allow the parties to submit briefs on
the merits of the questions presented in this petition.

SU

ITTE

urn

JEFFREY TODD DENTON #288247
DATED:

MaR -15~

2021

CERTIFICATION OF SERVICE
The petitioner certifies pursuant to USSC Rule-29 that he served the within Motion for
leave to proceed in forma pauperis and petition for writ of certiorari to the court of appeal for
the Sixth circuit on counsel for the respondent by enclosing a copy thereof in an envelope with
postage prepaid and addressed too:
1.

The Office of the Michigan Attorney General
Appellate Division
PO BOX: 30217
Lansing, Michigan 48909

And too:
2.

The Solicitor General of the United States
U.S. Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530
32

<
o

By deposing them in the Michigan Department of Corrections Institutional Mailing system
on

________________ , 2021 and further certifies that all parties required to be served have

been served.
BY:

&

u.
JEFFREY TODD DENTON #288247
DATED: A\&/?

33

L£

, 2021

Case 4:19-cv-11762-MFL-PTM ECF No. 11 filed 05/27/20
*

PagelD.866

Page 1 of 11

■!>

united States district court
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
JEFFREY DENTON,
Petitioner,

Case No. 19-cv-11762
Hon. Matthew F. Leitman

v.

JOHN DAVIDS,
Respondent.

OPINION AND ORDER (1) GRANTING RESPONDENT’S MOTION FOR
DISMISSAL (ECF No. 7), (21 DENYING CERTIFICATE OF
APPEALABILITY. (3) GRANTING PERMISSION TO APPEAL IN
FORMA PAUPERIS. (41 GRANTING PETITIONER’S MOTION TO
AMEND THE CASE CAPTION fECF NO. 101. AND
(5) AMENDING CASE CAPTION
Petitioner Jeffrey Denton is a state prisoner in the custody of the Michigan
Department of Corrections. In 1999, a jury in the Genesee County Circuit Court
convicted Denton of three counts of first-degree criminal sexual conduct, Mich.

i

Denton has moved to amend the case caption to reflect the correct spelling of his
name, which was misspelled as “Denten” in the petition. (See Denton Mot., ECF
No. 10.) The Court GRANTS the motion and amends the caption to reflect the
correct spelling of Denton’s name. In addition, the proper respondent in a habeas
action is the state officer having custody of the petitioner. See Rule 2, Rules
Governing Section 2254 Cases. The warden of Denton’s present place of
incarceration is John Davids. The Court therefore also amends the case caption to
substitute John Davids as the proper Respondent.

Case 4:19-cv-11762-MFL-PTM ECF No. 11 filed 05/27/20
*

PagelD.867

Page 2 of 11

i

Comp. Laws § 750.520b(l)(a). The state trial court then sentenced Denton as a
second habitual offender to three concurrent terms of 40 to 60 years imprisonment.
On June 8, 2019, Denton filed a pro se petition for a writ of habeas corpus in
this Court pursuant to 28 U.S.C. § 2254. {See Pet., ECF No. 1.) In the petition,
Denton claims that the prosecution withheld a medical report which would have
established, by clear and convincing evidence, that the victim in this case was never
sexually assaulted. {See id., PageID.21.) He insists that his petition is timely filed,
and, in the alternative, that the Court should excuse any untimeliness because he is
actually innocent. {See id., PageID.27-29.)
The matter is now before the Court on Respondent’s motion to dismiss the
petition as untimely under the one-year statute of limitations applicable to federal
habeas corpus actions. {See Mot. to Dismiss, ECF No. 7.) For all of the reasons
stated below, the petition is untimely. The Court therefore GRANTS Respondent’s
Motion to Dismiss. The Court further DENIES Denton a certificate of appealability.
However, the Court GRANTS Denton permission to appeal in forma pauperis.
I
Denton’s convictions arise from the sexual assaults of his fiancee’s eight-year
old daughter over the course of several months in 1998. Following his convictions
and sentencing in Genesee County Circuit Court, Denton filed an appeal of right
with the Michigan Court of Appeals. That court affirmed his convictions. See People
2

Case 4:19-cv-11762-MFL-PTM ECF No. 11 filed 05/27/20

PagelD.868

Page 3 of 11

v. Denton, 2001 WL 665189 (Mich. Ct. App. May 22, 2001). Denton then filed an
application for leave to appeal with the Michigan Supreme Court. That court denied
the application. See People v. Denton, 640 N.W.2d 873 (Mich. Feb. 4, 2002).
On August 4, 2014, Denton filed a motion for relief from judgment with the
state trial court.2 (See ECF No. 8-7.) That court denied the motion on October 15,
2014. (See ECF No. 8-8.) Both the Michigan Court of Appeals and the Michigan
Supreme Court denied Denton’s applications for leave to appeal the trial court’s
decision. See People v. Denton, Case No. 326707 (Mich. Ct. App. June 22, 2015),
People v. Denton, 880 N.W.2d 567 (Mich. 2016),
On June 24,2017, Denton filed a second motion for relief from judgment with
the state trial court.3 {See ECF No. 8-10.) The trial court denied the motion on July

2 Denton signed and dated the motion for relief from judgment on August 4, 2014.
{See ECF No. 8-7, PageID.500.) The state court received the motion for filing on
August 25, 2015. {See id., PageID.494.) The federal prison mailbox rule provides
that submissions by pro se prisoners are considered filed on the date they are given
to prison officials for mailing. See Houston v. Lack, 487 U.S. 266, 271-72 (1988).
Courts in this district disagree about whether this rule applies to a motion for relief
from judgment filed in a Michigan state court. Compare Shaykin v. Romanowski,
Case No. 14-cv-193381,2016 WL 193381, *5 (E.D. Mich. Jan. 14, 2016) (applying
prison mailbox rule to filing of motion for relief from judgment in state court) with
Smith v. Palmer, Case No. 12-cv-l 1036, 2015 WL 5707105, at *5 (E.D. Mich. Sept.
29, 2015) (concluding that prison mailbox rule did not apply to motion for relief
from judgment filed in state court). The Court need not resolve this issue because
even if the Court applies the prison mailbox rule and gives Denton the benefit of an
August 4, 2014, filing date, the petition filed in this Court would still be untimely.
3 The motion was received for filing in the state trial court on June 29, 2017. As
with Denton’s first motion for relief from judgment, the Court need not resolve the
3

Case 4:19-cv-11762-MFL-PTM ECF No. 11 filed 05/27/20

PagelD.869

Page 4 of 11

27, 2017. {See ECF No. 8-11.) Denton then filed applications for leave to appeal
with the Michigan Court of Appeals and Michigan Supreme Court. Both state
appellate courts denied the applications. See People v. Denton, Case No. 340066
(Mich. Ct. App. Sept. 28, 2018); People v. Denton, 917 N.W.2d 54 (Mich. Sept. 12,
2008).
Denton filed his habeas corpus petition in this Court on June 8, 2019. {See
Pet., ECF No. 1.) Respondent has filed a motion to dismiss the petition as untimely.
{See Mot. to Dismiss, ECF No. 7.) Denton did not file a reply, but he addressed the
timeliness question in his petition. {See Pet., ECF No. 1, PagelD. 10-12.)
II
A
The Antiterrorism and Effective Death Penalty Act of 1996 ( AEDPA ),
codified at 28 U.S.C. § 2241 et seq., became effective on April 24, 1996, and it
applies to Denton’s petition. AEDPA includes a one-year period of limitations for
habeas petitions brought by prisoners challenging state-court judgments. AEDPA
provides:
(1) A 1-year period of limitation shall apply to an
application for a writ of habeas corpus by a person in
custody pursuant to the judgment of a State court. The
limitation period shall run from the latest of-

applicability of the prison mailbox rule because giving Denton the benefit of this
rule does not impact the statute-of-limitations analysis.
4

Case 4:19-cv-11762-MFL-PTM ECF No. 11 filed 05/27/20

PagelD.870

Page 5 of 11

>,

(A) the date on which the judgment became final by
the conclusion of direct review or the expiration of
the time for seeking such review;
(B) the date on which the impediment to filing an
application created by State action in violation of
the Constitution or laws of the United States is
removed, if the applicant was prevented from filing
by such State action;
(C) the date on which the constitutional right
asserted was initially recognized by the Supreme
Court, if the right has been newly recognized by the
Supreme Court and made retroactively applicable to
cases on collateral review; or
(D) the date on which the factual predicate of the
claim or claims presented could have been
discovered through the exercise of due diligence.
(2) The time during which a properly filed application for
State postconviction or other collateral review with respect
to the pertinent judgment or claim is pending shall not be
counted toward any period of limitation under this
subsection.
28 U.S.C. § 2244(d).
Absent equitable tolling or another exception to AEDPA’s limitations period,
a habeas petition filed outside this prescribed time period is subject to dismissal. See
Jurado v. Burt, 337 F.3d 638 (6th Cir. 2003) (holding that habeas petitioner was not
entitled to equitable tolling and affirming dismissal of habeas petition as untimely
filed).

5

Case 4:19-cv-11762-MFL-PTM ECF No. 11 filed 05/27/20

PagelD.871

Page 6 of 11

B
As noted above, AEDPA’s one-year statute of limitations begins to run from
the latest of four triggering events. See 28 U.S.C. § 2244(d)(l)(A)-(D). The first and
fourth triggering events are relevant to Denton’s petition here.4 Respondent says
that subsection (A) applies because the latest relevant event was the date on which
Denton’s conviction became final upon the conclusion of direct review. That date
was more than sixteen years before Denton filed his petition here. Denton counters
that subsection (D) applies because, through the exercise of due diligence, he did not
discover the factual predicate of his claim that the prosecution failed to turn over the
victim’s medical record until long after his convictions became final on direct
review. He therefore says his discovery of that evidence is the latest relevant event.
The Court disagrees with Denton.
Denton’s reliance on subsection (D) is misplaced. As quoted above, that
section provides that, where applicable, the limitations period shall run from the “the
date on which the factual predicate of the claim or claims presented could have been
discovered through the exercise of due diligence.” 28 U.S.C. § 2244(d)(1)(D).
Denton claims that the prosecution violated Brady v. Maryland, 373 U.S. 83 (1963),

4 Denton does not allege that a state-created impediment prevented him from filing
a timely petition, nor does he rely on a newly recognized constitutional right.
Subsections (B) and (C) are therefore inapplicable to the Court’s analysis of the
limitations issue.
6

Case 4:19-cv-11762-MFL-PTM ECF No. 11 filed 05/27/20

PagelD.872

Page 7 of 11

when it failed to turn over to his defense a medical report, dated January 9, 1999.
That medical report concerned the victim’s evaluation at the Hurley Medical Center
em ergency room for possible sexual assault, and it stated that no abnormalities were
detected. (See ECF No. 1, PageID.25-27.) Denton claims that he was not previously
aware of the existence of the report, and he insists that AEPDA’s limitations period
did not begin until he discovered the report.5 But the record shows that both the
victim’s examination at the Hurley Medical Center and the medical report were
known to the defense at the time of trial in 1999.

Indeed, Denton’s counsel

specifically elicited testimony from a prosecution witness that (1) a report was
created after the victim’s examination at Hurley Medical Center and (2) the report
indicated that there were “no abnormalities” found during the examination. (ECF
No. 8-4, PageID.419-20.) Denton therefore presented evidence to the jury that the
report supported his theory that the victim was not assaulted. In addition, the
victim’s mother testified that she took the victim to Hurley Medical Center for an
examination. (See id., PageID.394-95.) Finally, Denton’s counsel referenced the
victim’s examination at Hurley Medical Center during closing arguments. (See ECF
No. 8-5, PageID.455.) Thus, the defense not only clearly knew about the victim’s

5 Although Denton argues that discovery of the medical report triggered ADEPA’s
statute of limitations, he fails to specify the date when the report became known to
him. The Court need not resolve this question because, as discussed infra, Denton’s
defense was aware of the report at the time of trial.
7

Case 4:19-cv-11762-MFL-PTM ECF No. 11 filed 05/27/20

PagelD.873

Page 8 of 11

examination and the resulting medical report at the time of trial, it presented
evidence about both to the jury. Because Denton was aware of the report at the time
of trial, the latest relevant event for purposes of AEDPA’s statute of limitations
cannot be Denton’s discovery of that evidence. Thus, Denton cannot rely on Section
2244(d)(1)(D) as the starting point for AEDPA’s statute of limitations.
The latest relevant event here was the date Denton’s conviction became final
under subsection (A). See28U.S.C. § 2244(d)(1)(A). Denton’s conviction became
final on May 5, 2002, i.e. 90 days after the Michigan Supreme Court denied his
application for leave to appeal. See Jimenez v. Quarterman, 555 U.S. 113, 120
(2009) (a conviction becomes final when “the time for filing a certiorari petition
expires”). Denton had one year from that date to timely file his federal habeas
petition. Ele failed to file his petition within that time period. Nor did Denton take
any action during that period that would have tolled AEDPA’s statute of limitations,
such as pursuing collateral review in state court during that time. Thus, AEPDA s
limitations period expired on May 5, 2003. Denton did not file his petition until
more than sixteen years later, on June 8, 2019. (See Pet., ECF No. 1.) The petition
is therefore untimely.
C
Denton argues, in the alternative, that his showing of actual innocence excuses
the untimeliness of the petition. See, e.g., McQuiggin v. Perkins, 569 U.S. 383, 392
8

Case 4:19-cv-11762-MFL-PTM ECF No. 11 filed 05/27/20

PagelD.874

Page 9 of 11

(2013) (holding that a showing of actual innocence can overcome AEDPA’s statute
of limitations). A valid claim of actual innocence requires a petitioner to support
his allegations of constitutional error with new reliable evidence - whether it be
exculpatory scientific evidence, trustworthy eyewitness account, or critical physical
evidence - that was not presented at trial.” Schlup v. Delo, 513 U.S. 298, 324 (1995).
“The Schlup standard is demanding and permits review only in the ‘extraordinary’
case.” House v. Bell, 547 U.S. 518, 538 (2006) (citation omitted).
Denton has failed to meet the Schlup standard here. He relies entirely on the
allegedly withheld medical report. And he insists that the report demonstrates his
innocence because the treating physician did not see evidence of sexual assault. But,
as discussed above, the report was not withheld from Denton’s defense at trial and
its contents were presented to the jury. The evidence is therefore not “new.” The
jury considered this evidence at Denton’s trial and nonetheless found him guilty.
In sum, Denton filed this petition more than sixteen years after the AEDPA
limitations period expired, and the Court finds no basis to excuse his untimely filing.
The Court will therefore GRANT Respondent’s motion and dismiss the petition.
Ill
Federal Rule of Appellate Procedure 22 provides that an appeal may not
proceed unless a certificate of appealability (a “COA”) is issued under 28 U.S.C. §
2253. A COA may be issued “only if the applicant has made a substantial showing
9

Case 4:19-cv-11762-MFL-PTM ECF No. 11 filed 05/27/20

PagelD.875

Page 10 of 11

of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). When a court denies
relief on the merits, the substantial showing threshold is satisfied when a petitioner
demonstrates “that reasonable jurists would find the district court’s assessment of
the constitutional claims debatable or wrong.” Slack v. McDaniel, 529 U.S. 473,484
(2000). When a court denies relief on procedural grounds without addressing the
merits, a certificate of appealability should issue if it is shown that jurists of reason
would find it debatable whether the petitioner states a valid claim of the denial of a
constitutional right, and that jurists of reason would find it debatable whether the
district court was correct in its procedural ruling. See id. In this case, jurists of reason
could not find debatable the Court’s procedural ruling that the petition is untimely.
The Court therefore DENIES Denton a certificate of appealability.
A court may grant a petitioner leave to proceed on appeal in forma pauperis
if it finds that an appeal is being taken in good faith. See 28 U.S.C. § 1915(a)(3);
Fed. R. App. 24(a). “Good faith” is judged objectively and an appeal is not taken in
good faith if the issue presented is frivolous. Coppedge v. United States, 369 U.S.
438,445 (1961). The Court finds that an appeal could be taken in good faith. Denton
may therefore proceed in forma pauperis on appeal. See id.

rv
For all of the reasons stated above, the Court holds that Denton’s habeas
petition is untimely. Accordingly, the Court GRANTS Respondent’s.motion to
10

Case 4:19-cv-11762-MFL-PTM ECF No. 11 filed 05/27/20

PagelD.876

Page 11 of 11

-1.

dismiss (ECF No. 7) and DISMISSES the petition (ECF No. 1) WITH
PREJUDICE.
The Court further DENIES Denton a certificate of appealability. But it
GRANTS him leave to appeal in forma pauperis.
The Court further DIRECTS the Clerk of Court to correct the case caption to:
Jeffrey Denton v. John Davids.
IT IS SO ORDERED.
s/Matthew F. Leitman
MATTHEW F. LEITMAN
UNITED STATES DISTRICT JUDGE
Dated: May 27, 2020
I hereby certify that a copy of the foregoing document was served upon the
parties and/or counsel of record on May 27, 2020, by electronic means and/or
ordinary mail.
s/ Hollv A. Monda
Case Manager
(810) 341-9764

11

Case 4:19-cv-11762-MFL-PTM ECF No. 12 filed 05/27/20

PagelD.877

Page 1 of 1

t
■

•*.

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
JEFFREY DENTON,
Case No. 19-cv-11762
Hon. Matthew F. Leitman

Petitioner,
v.

JOHN DAVIDS,
Respondent.
JUDGMENT
The above entitled action came before the Court on a petition for a writ of
habeas corpus. In accordance with the Opinion and Order entered on May 13, 2020:
IT IS ORDERED AND ADJUDGED that the petition for writ of habeas
corpus is DISMISSED WITH PREJUDICE.
IT IS FURTHER ORDERED that a certificate of appealability is DENIED.
IT IS FURTHER ORDERED that permission to appeal in forma pauperis
is GRANTED.
DAVID J. WEAVER
CLERK OF THE COURT
By: s/Hollv A. Monda
Deputy Clerk
Approved:
Dated: May 27, 2020
Flint, Michigan

s/Matthew F. Leitman
Matthew F. Leitman
United States District Court
1

'

i

U.S.C.A. ORDER #20-1566 DENYING COA

G

*»

: 1 * i J

■■t' :>■ lijt 2?

:

UNITED STATES COURT OF APPEALS ' ~ FOR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988

Deborah S. Hunt
Clerk

T'

Tel. (513) 564-7000
www.ca6.uscourts.gov

Filed: October 02, 2020

Mr. Jeffrey Denton
Ionia Correctional Facility
1576 W. Bluewater Highway
Ionia, MI 48846
Re: Case No. 20-1566, Jeffrey Denton v. John Davids
Originating Case No.: 4:19-cv-l 1762
Dear Ms. Denton,
The Court issued the enclosed Order today in this case.
Sincerely,
s/Antoinette Macon
Case Manager
Direct Dial No. 513-564-7015
cc: Mr. Scott Robert Shimkus
Mr. David J. Weaver
Enclosure

;3.-T-T-TTJ:~r—■

«i

y'p- s

1* J

■ •

:-s”

; rziTTrr- i V

?N0 • *20“ 1 5 6,6

n\

FILEE)

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
JEFFREY DENTON,
Petition er-Appe I lant,
v.
JOHN DAVIDS, Warden,

Respondent-Appellee.

)
)
)
)
)
)
)
)
)
)

■ t't

t~

Oct 02, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: BUSH, Circuit Judge.
Jeffrey Denton, a Michigan prisoner proceeding pro se, appeals the district court’s
judgment dismissing his petition for a writ of habeas corpus filed under 28 U.S.C. § 2254. Denton
has moved for a certificate of appealability.
A jury found Denton guilty of three counts of first-degree criminal sexual conduct, and the
trial court sentenced him to concurrent prison terms of 40 to 60 years. The Michigan Court of
Appeals affirmed the trial court’s judgment, People v. Denton, No. 220812, 2001 WL 665189
(Mich. Ct. App. May 22, 2001), and, on February 4, 2002, the Michigan Supreme Court denied
Denton’s delayed application for leave to appeal, People v. Denton, 640 N.W.2d 873 (Mich. 2002)
(table). In 2014, and again in 2017, Denton filed unsuccessful motions for relief from judgment
in state court.
In 2019, Denton filed a § 2254 petition, arguing that the prosecution suppressed a medical
report in which Dr. Gomez of the Hurley Medical Center determined that there was no evidence
that the victim was sexually assaulted. The district court dismissed the petition as untimely and
declined to issue a certificate of appealability.
To obtain a certificate of appealability, a petitioner must make “a substantial showing of
the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2); Miller-El v. Cockrell, 537 U.S. 322,

t.'

• (

•' <t'm *

No. 20-1566
-2J!~-T*’ ~

'iT*

.i -'vT-,rr

■t -&u• -v * -■

-.--••■■n. rti—. *

t

;r.rr,’ ">”•

• 1- T

336 (2003). When a district court denies a petition on procedural grounds without reaching the
prisoner’s underlying constitutional claim, a petitioner must show that jurists of reason would find
it debatable whether the petition states a valid claim of the denial of a constitutional right and that
jurists of reason would find it debatable whether the district court was correct in its procedural
ruling. Slack v. McDaniel, 529 U.S. 473, 484 (2000).
Reasonable jurists would not debate the district court’s determination that Denton’s
petition is untimely. Under 28 U.S.C. § 2244(d)(1)(A), the one-year limitations period applicable
to Denton’s petition began running, at the latest, in May 2002, ninety days after the Michigan
Supreme Court denied his delayed application for leave to appeal. See Gonzalez v. Thaler, 565
U.S. 134, 150 (2012); Pinchon v. Myers, 615 F.3d 631, 640 (6th Or 2010). Because Denton did
not file his habeas prthion or a div.c-toh'np motion in slate court during the following year, his

.. of'

petition is barred by the statute of limitations unless he is entitled to a later start date for the
limitations period, equitable tolling, or an equitable exception to the limitations period.
Denton contends that he is entitled to a later start date under 28 U.S.C. § 2244(d)(1)(D)
because he could not have previously discovered the existence of Dr. Gomez’s medical report.
But the trial transcript, shows that Denton was aware of the report during trial. Thus, he is not
entitled to a later start date under ’ 2244(d)(1)(D). Denton is also not entitled to equitable tolling
because he has not shown that he pursued his rights diligently or that an extraordinary circumstance
prevented him from filing a timely federal petition. Sec Holland v. Florida, 560 U.S. 631, 649
(2010). And Denton is not entitled to an equitable exception to the iinnu.dons period as discussed
in McQuiggin v. Perkins, 569 U.S. 383, 386 (2013), because Dr. Gomez’s report is fioi new
evidence, given that the substance of the report was presented at trial, see Cleveland v. Bradshaw,
693 F.3d 626, 633 (6th Cir. 2012), and, in any case, the report is insufficient to show that it is more
likely than not that no reasonable juror would have found Denton guilty in light of the other
evidence of his guilt, see Bell v. Howes, 703 F.3d 848, 854-55 (6th Cir. 2012).

<s
]

"Jfl-T ■'T "

* < ■ 'u »

No. 20-1566
-3 5 *“

:

'7

~r.

•i

-

-•} -V

•;£

i.'*. •

‘ -.rti

,•

Accordingly, Denton’s motion for a certificate of appealability is DENIED.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

; ••vx-'r”* r

t

•r1

*-T •

• 4

V* ,

U.S.C.A. ORDER DENYING EN BANC REHEARING

H

*m' v ^ r
f

No. 20-1566
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

JEFFREY DENTON,

)
)
)
)
)
)
)
)
)
)
)

Petitioner-Appellant,
v.
JOHN DAVIDS, WARDEN,
Respondent-Appellee.

FILED
Dec 07, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: SILER, CLAY, and THAPAR, Circuit Judges.
/
Jeffrey Denton, a Michigan prisoner, petitions the court to rehear en banc its order denying
him a certificate of appealability. The petition has been referred to this panel, on which the original
deciding judge does not sit, for an initial determination on the merits of the petition for rehearing.
Upon careful consideration, the panel concludes that the original deciding judge did not
misapprehend or overlook any point of law or fact in issuing the order and, accordingly, declines
to rehear the matter. Fed. R. App. P. 40(a).
The Clerk shall now refer the matter to all of the active members of the court for further
proceedings on the suggestion for en banc rehearing.
ENTERED BY ORDER OF THE COURT

»

Deborah S. Hunt, Clerk

M <•' ^

U.S.C.A. ORDER #20-1566 PANEL DENIED REHEARING

Case: 20-1566

Document: 12-1

Filed: 12/22/2020

(1 of 2)

Page: 1

No. 20-1566
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

JEFFREY DENTON,

)
)
)
)
)
)
)
)
)
)
)

Petitioner-Appellant,

v.
JOHN DAVIDS, WARDEN,
Respondent-Appellee.

FILED
Dec 22, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: SILER, CLAY, and THAPAR, Circuit Judges.
Jeffrey Denton petitions for rehearing en banc of this court’s order entered on October 2,
2020, denying his application for a certificate of appealability. The petition was initially referred
to this panel, on which the original deciding judge does not sit. After review of the petition, this
panel issued an order announcing its conclusion that the original application was properly denied.
The petition was then circulated to all active members of the court,* none of whom requested a
vote on the suggestion for an en banc rehearing. Pursuant to established court procedures, the
panel now denies the petition for rehearing en banc.
ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

'Judge Larsen recused herself from participation in this ruling.

Case: 20-1566

Document: 12-2

Filed: 12/22/2020

Page: 1

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988

Deborah S. Hunt
Clerk

Tel. (513) 564-7000
www.ca6.uscourts.gov

Filed: December 22, 2020

Mr. Jeffrey Denton
Ionia Correctional Facility
1576 W. Bluewater Highway
Ionia, MI 48846
Re: Case No. 20-1566, Jeffrey Denton v. John Davids
Originating Case No.: 4:19-cv-l 1762
Dear Mr. Denton,
The Court issued the enclosed Order today in this case.
Sincerely yours,
s/Beverly L. Harris
En Banc Coordinator
Direct Dial No. 513-564-7077
cc: Mr. Scott Robert Shimkus
Enclosure

(2 of 2)

Additional material
from this filing is
available in the
Clerk's Office.

